                            CTOR
                      SPE          GE
                 IN                     N
             F                              E
         O                                      R
     E




                                                A
 C




                                                    L
FI
OF




                                                        OFFICE OF INSPECTOR GENERAL
                                                             EXPORT-IMPORT BANK
                                                              of the UNITED STATES




      FISCAL YEAR 2011
   FINANCIAL STATEMENT
AUDIT - MANAGEMENT LETTER



                                                                        January 3, 2012
                                                                         OIG-AR-12-03
Office of Inspector General                      Export-Import Bank
                                                 of the United States
    January 03, 2012

    MEMORANDUM

    TO:                   David Sena
                          Senior Vice President and Chief Financial Officer (Acting)

                          Fernanda Young
                          Chief Information Officer

                          Joseph Sorbera
                          Vice President, Controller

                          Jeffrey Abramson
                          Vice President, Trade Finance

                          Walter Kosciow
                          Vice President, Trade Credit Insurance

    FROM:                     Christine Staley
                              Senior Auditor

    SUBJECT:              Fiscal Year 2011 Financial Statement Audit - Final Management Letter (OIG-
                          AR-12-03, January 3, 2012)

    This memorandum transmits Deloitte & Touche LLP’s Management Letter for the fiscal year
    2011 financial statement audit. Under a contract monitored by this office, we engaged the
    independent public accounting firm of Deloitte & Touche to perform the audit. The contract
    required the audit to be done in accordance with United States generally accepted government
    auditing standards; Office of Management and Budget audit guidance; and the Government
    Accountability Office/President’s Council on Integrity and Efficiency Financial Audit Manual.

    Deloitte and Touche issued an unqualified opinion on Ex-Im Bank’s financial statements. Also,
    Deloitte and Touche reported a significant deficiency in Ex-Im Bank’s internal control over
    financial reporting and no reportable noncompliance with laws and regulations were found. In
    addition, Deloitte & Touche noted control deficiencies related to Ex-Im Bank’s internal control
    over financial reporting and other matters that needed your attention. The observations,
    recommendations, and your response regarding such matters are presented in the Attachment.

    Deloitte & Touche is responsible for the attached management letter comments dated December
    29, 2011. We do not express opinions on Ex-Im Bank’s internal control or conclusions on
    compliance with laws and regulations.




                   811 Vermont Avenue, N.W. Washington, D.C. 20571
We appreciate the courtesies and cooperation provided to Deloitte & Touche and this office
during the audit.


cc:     Fred P. Hockberg, Chairman and President
        Audit Committee
        Alice Albright, Executive Vice President and Chief Operations Officer
        Michael Cushing, Senior Vice President – Resource Management
        Patricia Wolf, Financial Reporting Supervisor


Attachment




             811 Vermont Avenue, N.W. Washington, D.C. 20571
                                                                                        Deloitte & Touche LLP
                                                                                        1750 Tysons Boulevard
                                                                                        Suite 800
                                                                                        McLean, VA 22102
                                                                                        USA
                                                                                        Tel: 1 + 703-251-1000
                                                                                        Fax: 1+ 703- 332-7124
December 29, 2011                                                                       www.deloitte.com


Management of the Export-Import Bank of the United States
811 Vermont Avenue NW
Washington, DC 20571

Dear Members of Management:

In planning and performing our audit of the financial statements of the Export-Import Bank of the United
States (“Ex-Im Bank”) as of and for the year ended September 30, 2011 (on which we have issued our
report dated November 14, 2011), in accordance with auditing standards generally accepted in the United
States of America, the standards applicable to the financial audits contained in the Government Auditing
Standards, issued by the Comptroller General of the United States, and Office of Management and
Budget Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended, we
considered Ex-Im Bank’s internal control over financial reporting as a basis for designing audit
procedures that are appropriate in the circumstances, but not for the purpose of expressing an opinion on
the effectiveness of Ex-Im Bank’s internal control over financial reporting. Accordingly, we do not
express an opinion on the effectiveness of Ex-Im Bank’s internal control over financial reporting. This
report is based on our knowledge as of the date of our report on the financial statements, obtained in
performing our audit thereof, and should be read with that understanding.

Our consideration of internal control over financial reporting was for the limited purpose described in the
preceding paragraph and would not necessarily identify all deficiencies in internal control over financial
reporting. However, in connection with our audit, we identified a significant deficiency, Subsidy
Reestimate on Foreign Transaction, which we reported in our Independent Auditors’ Report on Internal
Control over Financial Reporting and On Compliance and Other Matters Based upon the Audit
Performed in Accordance with Government Auditing Standards, dated November 14, 2011.

We have also identified, and included in Sections I and II below, other deficiencies related to Ex-Im
Bank’s internal control over financial reporting and other matters as of September 30, 2011, that we wish
to bring to your attention.

Our audit work on the significant deficiency, Accounting for Subsidy Expense, reported in our prior-year’s
Independent Auditors’ Report on Internal Control over Financial Reporting and On Compliance and
Other Matters Based upon the Audit Performed in Accordance With Government Auditing Standards
determined that Ex-Im Bank adequately addressed this deficiency. Furthermore, Ex-Im Bank
adequately addressed the deficiencies we reported in the FY 2010 management comment letter (see
APPENDIX A).
The definition of a deficiency, a material weakness, and a significant deficiency is set forth in Section III.

Although we have included management’s written response to our comments in the attached Appendix,
such responses have not been subjected to the auditing procedures applied in our audit and, accordingly,
we do not express an opinion or provide any form of assurance on the appropriateness of the responses or
the effectiveness of any corrective actions described therein.

This report is intended solely for the information and use of the Audit Committee, the Inspector General,
management, and others within the organization and is not intended to be, and should not be, used by
anyone other than these specified parties.

Yours truly,




cc: The Inspector General of the Export-Import Bank of the United States and the Audit Committee of
the Export-Import Bank of the United States
SECTION I –CONTROL DEFICIENCIES

We identified, and have included below, control deficiencies involving Ex-Im Bank’s internal control
over financial reporting as of September 30, 2011, that we wish to bring to your attention:

Loss Factor Historical Claims Data

Condition:
Certain historical claims data were excluded from the loss factor calculation. Therefore, net claims data
used to develop the default rate were not complete and accurate. The subsidy re-estimate based on default
rate derived from the incomplete and inaccurate net claims data was also inaccurate. Management
immediately corrected the data, recalculated the subsidy, and made adjusting entry to the financial
statements.

Criteria:
Historical claims should be matched with the related original disbursement in the sub-records to ensure
the loss factors used for the subsidy re-estimate are based on accurate underlying information.

Cause:
The claims data used to calculate the loss factors was sorted to exclude $0 disbursement transactions
reported in the EXIM Online (EOL) system. During migration of records from the AS400 system (old
system used to process transactions by Ex-Im) into EXIM Online (EOL), certain records were incorrectly
transferred over as $0 disbursements instead of the actual disbursed value. Consequently, certain claims
were applied to incorrect sub records with $0 disbursements.

Effect or potential effect:
The omission of the historical claims data resulted in inaccurate loss rates which caused an overstatement
of the allowance of approximately $28 million. The error was corrected by management.

Recommendation:
The Chief Financial Officer (CFO) should require that a detailed review of the historical claims data be
performed at least by two competent individuals in the Office of the CFO to ensure that historical claims
data is complete and accurate.

Management Response:
Management agrees with the recommendation. The supervisor of the Portfolio Review & Budget
Reporting Office and a staff financial analyst will review the annual update to the historical claim data
used to calculate loss factors for the budget and the loss re-estimate.
Trade Credit Insurance Originations

Condition:
Certain Multi-buyer Insurance products, including Special Buyer Credit Limit (SBCL) or Issuing Bank
Credit Limit (IBCL) products, did not receive the required approval as specified in the individual
delegated authority (IDA) policy. Seventeen transactions were approved by personnel without appropriate
approval authority.

Criteria:
Ex-Im Bank’s IDA policy designates the dollar limit on the size of an individual transaction that
authorized personnel can approve. The IDA requires an additional level of approval for transactions with
higher amounts as Ex-Im Bank is exposed to higher liability.

Cause:
Due to inaccurate coding of business rules, the EOL system did not recognize the increased policy limit
from amendments and renewals to certain Multi-buyer Insurance products, including SBCL and IBCL
products; therefore, the product renewals and amendments were not properly routed through the EOL
system in accordance with the IDA approval policy.

Effect or potential effect:
Seventeen transactions were not properly approved in accordance with the IDA policy. These transactions
in question were subsequently reviewed and approved in accordance with the IDA policy. We have been
informed that the coding in EOL was corrected on September 24, 2011.

Recommendation:
The Vice Presidents – Trade Finance and Trade Credit Insurance should perform an annual review of the
EOL business rules to ensure the IDA policy is implemented properly.

Management Response:
Management agrees with the recommendation. Trade Credit Insurance and Trade Finance will annually
review the EOL business rules to ensure IDA policy is implemented properly.

Reprographic Error on the Published Annual Report

Condition:
Several figures and words in the 2010 published financial statements, footnotes, and Management
Discussion and Analysis (MD&A) were changed between the final printer’s proof and published versions.

Criteria:
The published financial statements, footnotes, and MD&A contain important information that users such
as U.S Treasury, Office of Management and Budget (OMB), and U.S. Government Accountability Office
(GAO) rely upon.
Cause:
The figures and words in the financial statements, footnotes, and MD&A were altered by the printing
office without approval from the Office of CFO of Export-Import Bank.

Effect or potential effect:
Several numbers were incorrect. Some words were changed and some phrases were re-arranged. The
numerical changes were insignificant. Changes in words and phrases did not affect the meaning of the
sentence or paragraph.

Recommendation:
The CFO should work with the printing office to ensure all changes to documents to be printed are
reviewed and approved by Ex-Im Bank personnel. The final printed financial statements, footnotes, and
MD&A should be compared to the final printers proof to ensure no unauthorized changes have been
made.

Management Response:
Management agrees with the recommendation. Beginning with the FY2011 report, the CFO’s office and
the Communications office will allocate additional time for review of the financial report before it is
posted on the Bank’s web site. The printer’s page proofs will also be reviewed by the Financial Reporting
Office before the report goes to print.

Inaccurate Risk Rating

Condition:
The risk ratings for credits monitored by the Project & Corporate Portfolio Management (PCPM) division
(excluding Portfolio Monitoring and Control Group - PMCG) were not fully reconciled between
Loan/Guarantee and Accounting System (LGA) and Asset Management System (AMS).

Criteria:
AMS contains the approved risk rating reports. These risk ratings should be fully reconciled to LGA to
ensure the accuracy of the risk ratings used for subsidy re-estimate calculation. The re-estimate
calculation is a critical process to evaluate Ex-Im Bank’s future cash flow needs based on current
borrowings and investments with US Treasury, and any expected portfolio cash flows and defaults.

Cause:
The PCPM division performed the review of the risk ratings between AMS and LGA on a sample basis
instead of reviewing all transactions under the responsibility of PCPM division.

Effect or potential effect:
Five credits under PCPM did not have a correct risk rating which resulted in an overstatement of
allowance of approximately $8.4 million.
Recommendation:
The CFO should direct the PCPM division officer to reconcile all risk ratings between AMS and LGA for
all transactions under its portfolio.

Management Response:
Management agrees with the recommendation. The CFO’s office is working with the Chief Information
Officer’s (CIO) office to develop reports for all the monitoring units that will compare the risk rating in
AMS with the risk rating in the LGA/EOL systems. The reports will assist in highlighting differences
between the systems and enable the monitoring units to resolve any discrepancies.

Short Term Single Buyer (STSB) Insurance Subsidy Calculation

Condition:
During our subsidy calculation testing, D&T noted that the subsidy for short-term single buyer insurance
was incorrectly calculated. The subsidy was calculated based on 100% of the transaction amount instead
of 90%.

Criteria:
The subsidy for short-term single buyer insurance should be based on 90% of the transaction amount,
which is the risk assumed by Ex-Im Bank.

Cause:
The EOL system calculated the subsidy amount for short-term single buyer insurance by applying the
subsidy rates to the incorrect field.

Effect or potential effect:
Subsidy for short-term single buyer transactions authorized in FY 2011 was overstated by approximately
$1.6 million.

Recommendation:
The Chief Information Officer should correct the EOL system code so that the subsidy rates are applied to
the appropriate field.

Management Response:
The CIO’s office corrected the business rule in EOL. On December 10, 2011, Change Request
EXIM0006966 (correcting the EOL rule for the calculation of the subsidy rates) was implemented in
production as part of EOL release 4-30-0.

Monitoring of Credits “In Transfer”

Condition:
Most credits are monitored by the Office of the CFO to determine the appropriate risk rating. However,
certain transactions with “in transfer” status were not monitored by the Office of the CFO. These
transactions were monitored by the originating department.
Criteria:
All transactions authorized by Ex-Im Bank should be monitored by the Office of the CFO to help ensure
proper risk rating for financial reporting purposes.

Cause:
Under existing Exim policy operative credits can, in certain circumstances, remain with the originating
department for an extended period and therefore are not part of the monitoring process by the Office of
the CFO.

Effect or potential effect:
No change in risk rating was noted. However, there is a possibility that a review by the Office of the CFO
could result in a change to the risk rating determined by the originating department.

Recommendation:
The CFO should ensure that transactions with “in-transfer” status are included in the monitoring process
performed by the Office of the CFO.

Management Response:
Management agrees with the recommendation. The CFO’s office is working with the CIO’s office to
develop a system to notify the monitoring units when a credit becomes operative or a medium term
insurance policy is issued. The monitoring units will then consult with the originating units regarding
responsibility over ongoing monitoring of the transaction and eventual “hand-off” to the CFO’s office.
SECTION II – OTHER MATTERS

Refer to Appendix A below for the status of the FY2010 management letter comments.

SECTION III– DEFINITIONS

The definition of a deficiency, a material weakness, and a significant deficiency that is established in AU
325, Communicating Internal Control Related Matters Identified in an Audit, is as follows:

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A deficiency in design exists when (a) a control necessary to meet the
control objective is missing or (b) an existing control is not properly designed so that, even if the control
operates as designed, the control objective is not always met. A deficiency in operation exists when a
properly designed control does not operate as designed, or the person performing the control does not
possess the necessary authority or qualifications to perform the control effectively.

A material weakness is a deficiency, or combination of deficiencies, in internal control over financial
reporting, such that there is a reasonable possibility that a material misstatement of the entity’s financial
statements will not be prevented, or detected and corrected on a timely basis.

A significant deficiency is a deficiency, or combination of deficiencies, in internal control over financial
reporting that is less severe than a material weakness, yet important enough to merit attention by those
charged with governance.
                                       APPENDIX A

The table below provides the status of the FY 2010 management comment letter.

                                                 Elevated to                       Adequately Resolved
                                                                  Still Relevant
 No.          Prior Year Comments                 Material                            or No Longer
                                                                  and Repeated
                                                 Weakness                               Relevant

  1.     Subsidy Re-Estimate Calculation                                                   X


  2.            Risk Rating Process                                                        X


  3.   Accounting for Expired Transactions                                                 X


The table below provides the status of the FY 2010 significant deficiency

                                                 Elevated to                       Adequately Resolved
                                                                  Still Relevant
 No.          Prior Year Comments                 Material                            or No Longer
                                                                  and Repeated
                                                 Weakness                               Relevant

  1.     Accounting for Subsidy Expense                                                    X
Office of Inspector General
Export-Import Bank of the United States
811 Vermont Avenue, NW
Washington, DC 20571
202-565-3908
www.exim.gov/oig
